BECKER GALLAGHER
Briefs

and

DONNA J. WOLF, J.D.
JULIE A. KERSHNER, J.D.

Records

CERTIFICATE OF SERVICE
I, Julie A. Kershner, hereby certify that 1 unbound
and 40 copies of the foregoing Petition for a Writ of
Certiorari in Arthur Lawton Clark v. State of Georgia,
were sent via Two Day Service to the U.S. Supreme
Court, and 3 copies were sent via Two Day Service and
e-mail to the following parties listed below, this 25th
day of November, 2019:
Mr. Timothy Grady Vaughn [U.S. Mail]
District Attorney
Oconee Judicial Circuit
P.O. Box 1027
Eastman, GA 31023-1027
(478) 374-3482
tvaughn@pacga.org
Mr. Christopher Michael Carr
Attorney General
Georgia Office of the Attorney General
40 Capitol Square SW
Atlanta, GA 30334
(404) 656-3300
ccarr@law.ga.gov

Counsel for Respondent
MICHAEL KENNEDY McINTYRE
Counsel of Record
965 Virginia Avenue, N.E.
Atlanta, Georgia 30306-3615
(404) 879-1515
mkm@georgiapostconviction.com

Attorney for Arthur Lawton Clark

BECKER GALLAGHER LEGAL PUBLISHING INCORPORATED

(800) 890.5001
www.beckergallagher.com

8790 Governor's Hill Drive
Suite 102

' Franklin Square
1300 I Street, NW, Suite 400E

Cincinnati, Ohio 45249

: Washington, DC 20005

All parties required to be served have been served.
I further declare under penalty of perjury that the
foregoing is true and correct. This Certificate is
executed on November 25, 2019.

~C.

Julie A. Kershne
Becker GallagheI· gal Publishing, Inc.
8790 Governor's Hill Drive, Suite 102
Cincinnati, OH 45249
(800) 890-5001
Subscribed and sworn to before me by the said
Affiant on the date below designated.

Notary Public
[seal]

JOHN D. GALLAGHER
Notary Public, State of Ohio
My Commission Expires
February 14, 2023

